Case 3:17-cr-00481-WKW-WC Document 185 Filed 06/01/20 Page 2 of 6
Case: 19-11869 Date Filed: 06/01/2020 Page: 1 of 5

[DO NOT PUBLISH]

Pet App. 1a

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-11869
Non-Argument Calendar
________________________
D.C. Docket No. 3:17-cr-00481-WKW-WC-1

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
versus
JAMAL AIKEEM HUTCHINSON,
Defendant - Appellant.
________________________
Appeal from the United States District Court
for the Middle District of Alabama
________________________
(June 1, 2020)

Before WILSON, MARTIN, and EDMONDSON, Circuit Judges.

Case 3:17-cr-00481-WKW-WC Document 185 Filed 06/01/20 Page 3 of 6
Case: 19-11869 Date Filed: 06/01/2020 Page: 2 of 5

PER CURIAM:

Jamal Hutchinson appeals his conviction and 120-month sentence after
pleading guilty to being a felon in possession of a firearm, in violation of 18 U.S.C.
§§ 922(g) and 924(a)(2). Briefly stated, Hutchinson contends his conviction
should be vacated in the light of the Supreme Court’s decision in Rehaif v. United
States, 139 S. Ct. 2191 (2019). No reversible error has been shown; we affirm.

I.

On appeal, Hutchinson first contends his indictment was defective because
the indictment (1) failed to allege that Hutchinson knew he was a convicted felon
when he possessed the firearm -- an essential element of a section 922(g) offense
as recognized by the Supreme Court in Rehaif, and (2) failed to cite to 18 U.S.C. §
924(a)(2). Hutchinson contends his indictment contains a jurisdictional defect
warranting de novo review.
Hutchinson’s challenge to his indictment is foreclosed by this Court’s
binding precedent. That Hutchinson’s indictment is defective for having omitted

2

Case 3:17-cr-00481-WKW-WC Document 185 Filed 06/01/20 Page 4 of 6
Case: 19-11869 Date Filed: 06/01/2020 Page: 3 of 5

the knowledge-of-status element recognized in Rehaif is undisputed.1 We have
concluded, however, that an indictment’s failure to allege the knowledge-of-status
element or to cite to section 924(a)(2), constitutes a defect that is nonjurisdictional. See United States v. Moore, 954 F.3d 1322, 1336-37 (11th Cir.
2020). By entering an unconditional guilty plea, Hutchinson has waived all nonjurisdictional defects in his indictment. See United States v. Brown, 752 F.3d
1344, 1347 (11th Cir. 2014).

II.

Hutchinson next contends that his guilty plea was unknowing and
involuntary because, at the plea colloquy, the magistrate judge failed to advise
Hutchinson that the government was required to prove beyond a reasonable doubt
that Hutchinson knew he was a convicted felon when he possessed the firearm.2

1

The indictment in this case alleged that Hutchinson, “having been previously convicted in a
court of a crime punishable by imprisonment for a term in excess of one year . . . did knowingly
possess a firearm and ammunition that traveled in and affected interstate commerce,” in violation
of 18 U.S.C. § 922(g)(1). The indictment listed four prior Alabama felony convictions: burglary,
promoting prison contraband, and two theft convictions.

2

Hutchinson also seeks to challenge the sufficiency of the factual basis for his plea. Hutchinson
first raised this issue in his reply brief; that issue is thus not properly before us in this appeal.
See United States v. Oakley, 744 F.2d 1553, 1556 (11th Cir. 1984) (“Arguments raised for the
first time in a reply brief are not properly before the reviewing court.”).

3

Case 3:17-cr-00481-WKW-WC Document 185 Filed 06/01/20 Page 5 of 6
Case: 19-11869 Date Filed: 06/01/2020 Page: 4 of 5

Because Hutchinson challenges the voluntariness of his plea for the first
time on appeal, we review this issue only for plain error. See United States v.
Moriarty, 429 F.3d 1012, 1018 (11th Cir. 2005) (when not raised in the district
court, both constitutional objections to a plea and objections based on Fed. R.
Crim. P. 11 are subject to plain error review); see also United States v. Reed, 941
F.3d 1018, 1020 (11th Cir. 2019) (reviewing a newly-available Rehaif argument
for plain error).
“To establish plain error, a defendant must show there is (1) error, (2) that is
plain, and (3) that affects substantial rights.” Moriarty, 429 F.3d at 1019. To show
that a plain error affected substantial rights in the context of a guilty plea, a
defendant “must show a reasonable probability that, but for the error, he would not
have entered the plea.” See United States v. Dominguez Benitez, 542 U.S. 74, 83
(2004). We may consider the entire record in determining whether an error
affected a defendant’s substantial rights. United States v. Vonn, 535 U.S. 55, 59
(2002).
That an error occurred during Hutchinson’s plea colloquy and that the error
was made plain by Rehaif is undisputed. Thus, we address only whether
Hutchinson has satisfied his burden of showing that the error affected his
substantial rights. We conclude that he has not.

4

Case 3:17-cr-00481-WKW-WC Document 185 Filed 06/01/20 Page 6 of 6
Case: 19-11869 Date Filed: 06/01/2020 Page: 5 of 5

The record sufficiently evidences that Hutchinson was aware of his status as
a convicted felon when he possessed the firearm. According to the undisputed
facts in the Presentence Investigation Report, Hutchinson had four prior felony
convictions -- each of which resulted in a sentence exceeding one year.
Hutchinson also testified at the plea colloquy that he had been convicted of at least
one of the four felonies listed in the indictment. Cf. Reed, 941 F.3d at 1021
(concluding the record established adequately that defendant knew of his
convicted-felon status given defendant’s 8 prior felony convictions, defendant’s
testimony that he “knew” he was not supposed to have a gun, and that defendant
had served 18 years in prison before his arrest for possessing a firearm). We also
note that Hutchinson never claims on appeal that he was actually unaware he was a
convicted felon when he possessed the firearm.
On this record, Hutchinson cannot demonstrate -- nor does he contend -- that
he would not have pleaded guilty but for the magistrate judge’s failure to advise
him of the knowledge-of-status element. Moreover, Hutchinson did benefit from
his decision to plead guilty: in exchange for Hutchinson’s guilty plea for being a
felon in possession of a firearm, the government moved to dismiss Counts 1 and 2
of the indictment (charging Hutchinson with Hobbs Act Robbery and with
brandishing a firearm during a crime of violence).
AFFIRMED.
5

